                         i
                         -
                         --
                          '   Closeout of M92020008
This case was forwarded to OIG by the Division of Grants and
Contracts (DGC) in a memo dated 12/23/91.




allegations against the subject:

      9
(1) pla iarism  - based on the subject's reference (in a letter
                to the complainant) to a presentation made by the
                                                              -
      com~lainantas !lour workn complainant maintains that subject
                                      ;
          probided absolutely no input to the complainant's work.
(2) misuse        of time spent while on "grant clockn - subject
          requested/required complainant to perform personal errands,
          e.g, transportation of subject and his family to and from the
          airport, school, etc.
(3)       refusal of subject to meet his obligations as thesis advisor -
          subject refused to provide advice and guidance and made no
          contributions whatsoever to the complainant's work.
(4)       retaliation by the subject and other university officials - As
          the complainant's thesis advisor, the subject sent the
          complainant what was essentially a letter of reprimand about
          his unwillingness to work within the university system; the
          complainant's response to this letter included the allegations
          stated here. Complainant alleges that university officials
          responded to his allegations by requesting him to move from
          his office to a smaller room without a telephone.
The material provided by the complainant consisted of three
letters:     the subject's letter to the complainant, the
complainant's response to it, and a letter from thecomplainant to
the   4  -      -
                                                                 J
The complainant did not provide any factual evidence to support his
allegations. When OIG requested that the complainant provide OIG
with factual support for his allegations, the complainant indicated
that he "would like to see the matter closedn and provided no
      -
supporting information. In the absence of any factual support from
the complainant for these allegations this case was closed.


Evaluator, OIG, 6/4/92

Concurrence:        %-%*w-                 6//0/ 9 L
                    James 5 . Zwolenik
                    Assistant Inspector General for Oversight


                    Assistant Counsel to the Inspector General
